September 30, 1999


A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

RUDOLPH K. UMSCHEID
VICE PRESIDENT, FACILITIES

SUBJECT:	 Responsibilities of Contracting Officer’s Representatives
          (Report Number CA-AR-99-003)


This report presents the results of our review of the Responsibilities of Contracting
Officer’s Representatives at the Memphis Major Facilities Office, Columbia Facilities
Service Office and the Capital Metro Facilities Service Office (Project Number
99RA009CA000). The report is the first in a series we plan to issue on the
Responsibilities of Contracting Officer’s Representatives for Facilities, Purchasing and
Materials and National Mail Transportation Purchasing contracts. The audit was a self
initiated review that was included in our fiscal year (FY) 1999 audit workload plan.

The audit revealed that United States Postal Service (USPS) management has a
system in place to provide for Contracting Officer’s Representative administration of
construction contracts. However, our audit identified approximately $103,791 in
overpayments and $2.2 million in stored materials that could result in an overpayment.
Specifically, this report addresses concerns with guaranteed maximum price contracts;
certifying stored materials; final inspections and acceptance; overpayment of invoices;
contract time extensions; requirements for Contracting Officer’s Representatives; and
separation of duties. Management generally agreed with our recommendations and has
initiatives in progress, completed, or planned addressing the issues in this report.
Management will have corrective actions completely implemented by the end of FY
2000. Management's responses and our evaluation of these responses are attached to
the report.
We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions on need additional information, please contact Kim H. Stroud,
Director, Contracts or me at 703-248-2300.



Sylvia L. Owens
Assistant Inspector General
 for Revenue/Cost Containment

Attachment

cc:	 Office of Deputy Postmaster General
     Alan B. Kiel
     John R. Gunnels
Responsibilities of Contracting                                    CA-AR-99-003
 Officer's Representatives


                                  TABLE OF CONTENTS
Part I

EXECUTIVE SUMMARY                                                      i


Part II

INTRODUCTION
     Background                                                       1

     Objective, Scope, and Methodology                                1


AUDIT RESULTS
     Guaranteed Maximum Price                                         3

     Recommendations                                                  4

     Management’s Comments                                            4

     Evaluation of Management Comments                                4


          Certifying Stored Materials                                 5

          Recommendation                                              5

          Management Comments                                         6

          Evaluation of Management Comments                           6


          Final Inspection and Acceptance                             7

          Recommendation                                              8

          Management Comments                                         8

          Evaluation of Management Comments                           8


          Overpayment of Invoices                                     9

          Recommendations                                             9

          Management Comments                                         10

          Evaluation of Management Comments                           10


          Contract Time Extensions                                    11

          Recommendations                                             11

          Management’s Comments                                       12

          Evaluation of Management’s Comments                         12


          Requirements for Contracting Officer’s Representatives      13

          Recommendations                                             14

          Management’s Comments                                       14

          Evaluation of Management’s Comments                         15





                                     Restricted Information
Responsibilities of Contracting                             CA-AR-99-003
 Officer's Representatives


        Separation of Duties                                   16
        Recommendation                                         17
        Management’s Comments                                  17
        Evaluation of Management’s Comments                    17

APPENDICES
    Appendix A - Summary of Facilities Contracts Reviewed      18
    Appendix B – Management’s Comments                         22




                                  Restricted Information
Responsibilities of Contracting                                                          CA-AR-99-003
 Officer's Representatives


                                     EXECUTIVE SUMMARY
Introduction	                     The objective of our audit was to determine if Contracting
                                  Officer’s Representatives (CORs) adequately administered
                                  construction contracts. We evaluated the adequacy of
                                  invoice certification, sufficiency of documentation, receipt of
                                  goods and services, and execution of contract
                                  modifications. We also reviewed the formal training,
                                  appointing, and terminating of CORs. We plan to evaluate
                                  the COR program in each purchasing activity, (Facilities,
                                  Purchasing, and Transportation). This report addresses our
                                  work at the Memphis Major Facilities Office, Columbia
                                  Facilities Service Office and the Capital Metro Facilities
                                  Service Office. The audit was a self initiated review that
                                  was included in our fiscal year (FY) 1999 audit workload
                                  plan.

Results in Brief	                 Facilities management has a system in place to provide for
                                  COR administration of construction contracts and if adhered
                                  to should provide reasonable assurance that the COR
                                  program is adequately administered. However, our audit
                                  identified several areas that need improvement.
                                  Specifically:

                                  •	 Regular audits were not being performed on guaranteed
                                     maximum price contracts to determine potential shared
                                     savings.

                                  •	 Contractors’ invoices did not adequately support stored
                                     materials of approximately $2.2 million.

                                  •	 Final inspections and acceptance were not properly
                                     documented.

                                  •	 Progress payments were made that the United States
                                     Postal Service (USPS) was not billed for, resulting in an
                                     overpayment of $103,791.

                                  •	 We found instances where the period of contract
                                     performance exceeded the contract completion date
                                     without proper justification or assessment of damages.




                                                      i
                                            Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives


                                  •	 In some instances, CORs were not properly trained,
                                     appointed, or terminated.

                                  •	 Adequate separation of duties did not exist to ensure
                                     that the necessary checks and balances were in place to
                                     protect the integrity of the procurement process.

                                  Appendix A is a summary of the contracts we reviewed.

                                  USPS management has taken action to improve the COR
                                  process. For example, in 1996 as a guide, management
                                  developed a handbook and video titled, “You’re a COR
                                  Now” to enhance the understanding of the overall program.
                                  This pamphlet is intended to be used for training and as a
                                  guide to the day-to-day responsibilities of the COR.
                                  Management was also reviewing a contractor developed
                                  compact disk to facilitate COR training, but the disk has not
                                  been released due to budget constraints.

                                  In addition to issues related to COR responsibilities, we
                                  identified several contract administration issues, and this
                                  report contains our recommendations in these areas.

Summary of                        We recommended that the Major Facilities Service Office
Recommendations                   Managers, Vice President, Purchasing and Materials and
                                  the Vice President, Facilities, implement improved
                                  procedures and controls over regular audits, contract
                                  documentation, contractor payments, justifications for
                                  project delays, training, appointing, and terminating CORs
                                  and separation of duties. Specific recommendations are
                                  contained in the body of this report.

Summary of                        The Vice President, Purchasing and Materials and the Vice
Management’s                      President, Facilities generally agreed with the
Comments                          recommendations contained in this report. Their responses
                                  to the recommendations included a summary of initiatives
                                  USPS has in progress, completed, or planned.
                                  Management will have corrective actions completely
                                  implemented by the end of FY 2000. We summarized
                                  management's responses in the report and included the full
                                  text of the responses in Appendix B.




                                                     ii
                                           Restricted Information
Responsibilities of Contracting                                                        CA-AR-99-003
 Officer's Representatives


Evaluation of                     Management's planned or implemented actions are
Management                        responsive and address the issues identified in the report.
Comments




                                                     iii
                                           Restricted Information
Responsibilities of Contracting                                                          CA-AR-99-003
 Officer's Representatives


                                          INTRODUCTION
Background                        The Postmaster General has delegated contracting
                                  authority for construction to the Vice President, Purchasing
                                  and Materials and contracting authority for real estate to the
                                  Vice President, Facilities. A special delegation of
                                  construction authority for contracts over $10 million was
                                  delegated to the Manager, Major Facilities Purchasing
                                  under the Vice President, Purchasing and Materials.

                                  Facilities is an enabling organization within the USPS. Its
                                  role is to gather and provide data to postal management to
                                  assist with planning for facilities infrastructure investments.
                                  The Facilities Service Office actively searches for
                                  opportunities to solve ongoing facilities issues and assists in
                                  expediting the approval process. Once projects are
                                  approved, the Facilities Service Offices perform
                                  negotiations, contracting and design, and construction
                                  through project completion.

                                  The project manager is designated by the contracting officer
                                  and is responsible for contract administration, payments,
                                  change requests, cost and schedule control. The project
                                  manager is the COR, whose prime responsibilities are to
                                  ensure that construction work is completed in accordance
                                  with the contract requirements. The COR is the point of
                                  contact with the contractor. The COR is responsible for
                                  proper administration and inspection of contracts assigned.

                                  CORs may be assigned a range of responsibilities related to
                                  the administration of construction contracts. These
                                  responsibilities may include certifying invoices, reviewing
                                  guaranteed maximum price contracts, verifying the accuracy
                                  of supporting documentation, performing inspections,
                                  acceptance of goods and services, and properly
                                  documenting contract time extensions. In order to carry out
                                  their responsibilities, CORs should be properly trained,
                                  appointed, and terminated. It is also important that the
                                  contracting officer and CORs duties be clearly defined to
                                  ensure proper separation of duties.

Objective, Scope, and 	 The objective of the audit was to determine if CORs
Methodology	            adequately administered construction contracts. We
                        evaluated the adequacy of invoice certification, sufficiency
                        of documentation, adequacy of receipt of goods and



                                                       1
                                            Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives


                                  services and execution of modifications. Also, we reviewed
                                  the COR training requirements, appointments, and
                                  termination of CORs.

                                  We conducted audit work and interviewed USPS employees
                                  at the Memphis Major Facilities Office, Columbia Facilities
                                  Service Office, and the Capital Metro Facilities Service
                                  Office. Additionally, we visited and interviewed contract
                                  employees retained by the USPS to aid in the administration
                                  of facilities contracts. We reviewed applicable contract files,
                                  CORs files, architect, engineer files, and construction
                                  manager files. We also reviewed other relevant
                                  documentation, as we considered necessary.

                                  For this phase of the review, we randomly selected 49 open
                                  and closed contracts valued at $100,000 or more. The
                                  contracts were dated from September 1996 through
                                  December 1998. Our sample was selected from a contract
                                  listing provided by USPS Facilities Headquarters. This
                                  report summarizes audit work for the 49 contracts. We
                                  used computer-generated data to support findings and
                                  conclusions but we did not validate application controls.
                                  Instead, we assessed the reliability of this data by reviewing
                                  source documents and through discussions with
                                  management officials.

                                  This audit was conducted from February through
                                  August 1999 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls that we considered necessary under the
                                  circumstances. We discussed our conclusions and
                                  observations with appropriate management officials on
                                  August 10, 1999, and included their comments, where
                                  appropriate.

                                  This summarizes our audit work at three locations and is the
                                  first in a series of reports we plan to issue. We will issue
                                  other reports to summarize our audit at other facilities
                                  locations.




                                                      2
                                           Restricted Information
Responsibilities of Contracting                                                        CA-AR-99-003
 Officer's Representatives



                                          AUDIT RESULTS
Guaranteed Maximum The USPS contracts with Construction Management
Price Contracts    Support Service firms to perform monthly audits of
                   contractors' costs for many reasons, to include determining
                   any potential shared savings on guaranteed maximum price
                   contracts. If the final cost of the total project is less than the
                   guaranteed maximum price, the USPS and the contractor
                   shares the savings in accordance with a contractually
                   established ratio.

                                  The Memphis Major Facilities Office manager, on
                                  February 5, 1998, issued instructions requiring all design
                                  and construction employees in his office to ensure that
                                  construction management firms perform monthly audits of
                                  guaranteed maximum price contracts.

Potential Shared                  The COR did not require monthly audits in three of the five
Savings                           guaranteed maximum price contracts we reviewed at the
                                  Memphis Major Facilities Office. For example:

                                  •	 The first contract was awarded at a maximum contract
                                     award price of $22,839,000. The ending period of
                                     performance for the contract was August 1999. The
                                     contract started in March 1998, but no audits have been
                                     accomplished to date to determine any potential shared
                                     cost savings.

                                  •	 The second contract was started June 1998, and
                                     awarded at a maximum contract award price of
                                     $22,098,000. The USPS made a substantial completion
                                     acceptance of the new facility on July 6, 1999; however,
                                     as of the date of our review, the construction
                                     management firm had not performed any audits.

                                  •	 The third contract was awarded in February 1998 for a
                                     maximum of $17,075,000. The facility was accepted on
                                     January 1999, but monthly audits were not performed to
                                     determine potential shared cost savings until May 1999.
                                     The audit identified $677,000 in potential shared cost
                                     savings.




                                                      3
                                           Restricted Information
Responsibilities of Contracting                                                           CA-AR-99-003
 Officer's Representatives


                                  Monthly audits were not completed because USPS
                                  personnel are not requiring construction management firms
                                  to perform them at all or until late in the performance of the
                                  contract. As a result, shared cost savings are not identified
                                  and documented throughout the course of the contract.

                                  Regular audits should be completed to identify potential
                                  shared cost savings. Not performing regular audits may
                                  greatly reduce the visibility of costs and impede the ability to
                                  identify potential savings when an audit is eventually
                                  performed. For example, where the construction manager
                                  performed monthly audits on a contract, he identified an
                                  excess of $71,000 of disallowable charges over a period of
                                  11 months.

Recommendations 	                 The Major Facilities Service Office Manager should
                                  implement procedures and controls to:

                                  1. Accomplish regular audits of guaranteed maximum price
                                     contracts to identify shared cost savings.
                                  2. Adjust contractor payments based on the results of
                                     audits.

Management’s                      The Vice President, Facilities and the Vice President,
Comments                          Purchasing and Materials agreed with the
                                  recommendations. Management stated that an informal
                                  audit is conducted by the Design and Construction Manager
                                  with the receipt of each pay request. Managers will be
                                  required to include documentation in the contract file which
                                  shows the potential shared savings identified as a result of
                                  these audits. Also, payment amounts are based on
                                  documentation provided by the contractor and verification of
                                  completed work. Major Facilities Purchasing will implement
                                  the recommendations for all future projects.

Evaluation of                     Management's comments are responsive to our 

Management’s                      recommendations.

Comments





                                                       4
                                            Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives




Certifying Stored                 Stored materials are reimbursable expenses to the
Materials                         contractor for materials bought and inventoried for the
                                  project. Stored materials are subject to proper verification
                                  of its value and can be kept at the construction site or a
                                  bonded warehouse within 25 miles of the construction site.

                                  We identified approximately $2.2 million in reimbursable
                                  contractor expenses for stored materials on five facility
                                  contracts that were not supported by proper documentation.
                                  These stored materials were identified at two locations as
                                  discussed below.

                                  Columbia and the Capital Metro Facilities Service Offices:
                                  We identified two projects which contained a total of nine
                                  progress payments for stored materials of approximately
                                  $512,759 that were not properly supported by the required
                                  vendor or subcontract or invoices (See Appendix A).

                                  Memphis Facilities Service Office: We identified four
                                  projects which contained a total of 15 progress payments for
                                  stored materials of approximately $1.7 million that were not
                                  properly supported by the required vendor or subcontractor
                                  invoices (See Appendix A).

                                  These conditions occurred for two reasons. First, the COR
                                  was not aware of stored materials verification procedures.
                                  Second, management stated the construction manager
                                  should be cognizant of the stored materials on site. The
                                  COR did not require external documentation (supplier’s
                                  invoices) to support the cost and quantity of the stored
                                  materials. Without requiring the proper external
                                  documentation for stored materials on invoices, there is no
                                  assurance that USPS is paying for the actual material cost
                                  and there is the potential for USPS to make duplicate
                                  payments.

Recommendation                    3. Facilities Service Office managers should require that
                                     contractor invoices include sufficient external supporting
                                     documentation before processing the invoice for
                                     payment.




                                                      5
                                           Restricted Information
Responsibilities of Contracting                                                          CA-AR-99-003
 Officer's Representatives


Management’s                      The Vice President, Facilities and Vice President,
Comments                          Purchasing and Materials agreed with the recommendation.
                                  Management stated that the contracting officer should be
                                  responsible for enforcing this policy. The contracting officer
                                  signs final authorization on payments and as such should
                                  verify that all supporting documentation is in place. The
                                  contracting officer is ultimately responsible for ensuring that
                                  supporting documentation obtained by the COR is sufficient.

                                  Facilities plans to complete the action on this issue on
                                  October 6, 1999, and Purchasing estimates completion prior
                                  to the end of FY 2000.

Evaluation of                     Management's comments are responsive to our 

Management’s                      recommendation.

Comments





                                                       6
                                            Restricted Information
Responsibilities of Contracting                                                             CA-AR-99-003
 Officer's Representatives



Final Inspection and                 USPS policy requires the COR to conduct a room-by-room
Acceptance                           survey and to ensure that equipment is in good working
                                     order. Discrepancies listed on the punchlist must be re­
                                     inspected, and unacceptable items must be reinspected.
                                     The inspection team prepares a punchlist of remaining
                                     defects and omissions and includes information necessary
                                     to locate and correct deficiencies. The COR considers
                                     inspection reports and makes recommendations as to
                                     whether the project is substantially complete.

                                     Inspection teams are responsible for documenting and
                                     maintaining complete records on performance for (1)
                                     contract administration; and (2) assessing contractor
                                     performance.

Documentation of the                 We identified 12 of 49 facility contracts at three locations
Final Inspection                     where final inspections were not properly documented in the
                                     contract file. In some cases, punchlists were documented in
                                     the official contract files but, there was no evidence that
                                     discrepancies were resolved.1 Other project files did not
                                     contain a punchlist or any other evidence of final
                                     inspection. 2

                                     Final payments were made without documenting that the
                                     discrepancies were corrected. In addition, Facilities
                                     personnel told us that the official contract files did not
                                     contain evidence of final inspection, because the inspection
                                     results were maintained in the project manager’s file or the
                                     construction manager’s file. The purchasing manual
                                     requires that contract actions be documented, recorded,
                                     and maintained in official contract files. At the conclusion of
                                     projects, final inspection should be accomplished and
                                     facilities should not be accepted unless there are only minor
                                     (cosmetic) changes remaining on the punchlist.

                                     At project conclusion pertinent information from other
                                     unofficial files should be consolidated into official contract
                                     files. In light of continuous reorganizations it is especially
                                     important that contract files contain complete and accurate
                                     information.


1
    Nine files contained punchlists without evidence of resolution.
2
    Three files did not contain a punchlist or any evidence of final inspection.



                                                             7
                                                  Restricted Information
Responsibilities of Contracting                                                        CA-AR-99-003
 Officer's Representatives


                                  Adequate documentation of final inspection and acceptance
                                  would provide USPS reasonable assurance that the
                                  contractor met all contractual requirements. Otherwise, the
                                  USPS will have no guarantee that the contractor corrected
                                  deficiencies on the project before final payment is made.

Recommendation                    4. The Vice President, Facilities in conjunction with the
                                     Facilities Service Office manager should require CORs
                                     to include the final inspection in contract files and
                                     recommend withholding final payment until
                                     discrepancies are corrected.

Management’s                      The Vice President, Facilities and Vice President,
Comments                          Purchasing and Materials agreed with the recommendation.
                                  Management stated that documenting field and final
                                  inspections is an extremely important issue to Facilities and
                                  has been previously addressed. Management will continue
                                  to stress compliance with this issue as the need arises. In
                                  addition, management stated that it is the contracting
                                  officer's responsibility to make sure that this documentation
                                  is obtained from the COR and that moneys are withheld.

                                  Facilities plans to complete the action on this issue on
                                  October 6, 1999 and Purchasing estimates completion prior
                                  to the end of FY 2000.

Evaluation of                     Management’s comments are responsive to our 

Management’s                      recommendation.

Comments





                                                      8
                                           Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives




Overpayment of                    One of the responsibilities of CORs is to make
Invoices                          recommendations to contracting officers, for payment of
                                  invoices submitted by contractors. USPS policy prescribes
                                  that progress payments be reviewed by CORs for
                                  completeness and accuracy and forwarded to the
                                  contracting officer for final approval. The amount of each
                                  payment is based on completed and accepted work during
                                  the payment period.

Progress Payments                 CORs on two contracts recommended payments totaling
                                  approximately $109,159 for expenses that were not
                                  included in the contractor’s monthly progress payments.
                                  Specifically:

                                  On one contract, the contractor billed for $40,712. Based
                                  on the work completed, the COR reduced the payment to
                                  $3,741. The contract specialist increased the invoice to
                                  $107,533 to reflect what she thought was remaining on the
                                  contract. This condition occurred because the contract
                                  specialist corrected an addition error, but the invoice was
                                  correct. As a result, the contractor was overpaid
                                  approximately $103,791. The overpayment occurred in
                                  November 1998 and was not discovered until our audit.

                                  On another contract, the COR recommended payment for
                                  $5,368 in design expenses that were not billed by the
                                  contractor on the invoice submitted. The COR stated that in
                                  his opinion, the contractor should be reimbursed for some of
                                  the design costs since he had completed the majority of this
                                  work. Consequently, the contractor received payment for
                                  design expenses that were never billed on any line item of
                                  the invoice. When payments are made without invoices,
                                  there is potential for duplication of payment when the
                                  contractor eventually submits invoices for expenses under
                                  the design line item.

Recommendations                   The Facility Service Office Manager should require:

                                  5. The contracting officer to recoup the $103,791
                                     overpayment on the contract.




                                                      9
                                           Restricted Information
Responsibilities of Contracting                                                       CA-AR-99-003
 Officer's Representatives


                                  6. The COR to instruct contractors to resubmit invoices
                                     when all appropriate cost are not shown on invoices.

Management                        The Vice President, Facilities and Vice President,
Comments                          Purchasing and Materials agreed with the
                                  recommendations. Management stated that the appropriate
                                  Facility Service Officer would be contacted and the
                                  overpayment recouped. In addition, management will
                                  instruct CORs to have contractors resubmit invoices when
                                  all appropriate costs are not shown on invoices.

Evaluation of                     Management’s comments are responsive to our 

Management                        recommendations. 

Comments





                                                     10
                                           Restricted Information
Responsibilities of Contracting                                                          CA-AR-99-003
 Officer's Representatives




Contract Time                     The contractor has a responsibility to complete work within
Extensions                        the timeframe specified in the contract. According to the
                                  USPS Design and Construction Handbook, “If the contractor
                                  fails to diligently prosecute the work or to complete the work
                                  within the time specified, it is subject to termination of the
                                  right to proceed with the work for default and/or assessment
                                  of damages.” The handbook requires that the contractor
                                  initiates and requests extensions when performance is
                                  delayed. The extensions should be negotiated and agreed
                                  upon by the COR and the contracting officer. Equitable
                                  adjustments are made to the contract depending on the
                                  cause of the delay. Most construction contracts provide for
                                  liquidated damages and other remedies for unexcused
                                  delays. The COR’s failure to document delays will impair
                                  the USPS ability to recover these damages.

Period of Performance             Three of the contracts reviewed had gone beyond the
                                  contract completion date and in two of those cases no
                                  damages were assessed. For example, one contract
                                  exceeded the contract completion date by approximately 65
                                  calendar days and no contract action was taken to extend
                                  the completion date or excuse the delay. If this was not an
                                  excusable delay, USPS would be entitled to damages for
                                  this delay. We could not determine why the COR allowed
                                  contract extensions without properly modifying the contract
                                  completion date. However, in their effort to complete the
                                  project, management told us that assessing damages would
                                  not be beneficial because the contractor might quit the
                                  project.

                                  USPS should not authorize contract extensions without
                                  written justification and/or due contract consideration in the
                                  form of an equitable adjustment or other relief. Allowing the
                                  contractor to delay the project without an extension could
                                  result in a substantial financial loss for USPS. Delays to
                                  occupy buildings on time require USPS to incur excessive
                                  costs.

Recommendations                   The Vice President, Facilities should:

                                  7. Require contractors to submit written justification for
                                     contract delays and/or extensions in accordance with the
                                     terms of the contract.



                                                      11
                                            Restricted Information
Responsibilities of Contracting                                                        CA-AR-99-003
 Officer's Representatives



                                  8. Require the contracting officer to make a determination
                                     of the cause of the delay and negotiate an equitable
                                     adjustment or assess liquidated damages, when
                                     appropriate.

Management                        The Vice President, Facilities and Vice President,
Comments                          Purchasing and Materials agreed with the
                                  recommendations. Management stated that Design and
                                  Construction Managers are the primary contracting officers
                                  in each office and are responsible for enforcing contracting
                                  related policy. The issue will be stressed at the upcoming
                                  October 6, 1999, national Design and Construction
                                  Managers meeting.

Evaluation of                     Management’s comments are responsive to our 

Management                        recommendations.

Comments





                                                     12
                                           Restricted Information
Responsibilities of Contracting                                                                CA-AR-99-003
 Officer's Representatives



Requirements for                  CORs are appointed in writing by the contracting officers to
Contracting Officer’s             administer the construction contract from award through
Representatives                   project closeout and one year warranty inspection. The
                                  Headquarters’ Purchasing and Policy Section requires
                                  formal COR training. The contracting officer provides
                                  written notification to contracting parties (i.e. COR, architect
                                  and engineering firm, contractor, etc.) regarding the
                                  designation, authorities, and limitations of CORs. USPS
                                  procurement handbook dated February 1992 stipulates that
                                  contracting officers should terminate CORs in writing. The
                                  contractor should receive a copy of the termination letter or
                                  separate letter advising CORs of the termination.

Contracting Officer’s             The CORs in 43 of the 49 contracts we reviewed had not
Representative                    received USPS COR training.3 Also, there were several
Responsibilities                  instances where CORs were not properly appointed4 or
                                  terminated.5 For example, on the Centerville project, all
                                  three of these conditions existed. Three contract
                                  employees acted as CORs but they were not properly
                                  trained, appointed, or terminated. While this contract was
                                  still in process, all three contract employees left that office
                                  for other employment. However, the construction contractor
                                  was not notified in writing that those individuals were no
                                  longer authorized to represent USPS.

                                  According to management, COR training was not provided
                                  to USPS employees because some CORs were also level I,
                                  II, or III contracting officers and they felt their contracting
                                  officer training was sufficient to monitor facilities contracts.
                                  Contract employees were not trained as CORs' because
                                  USPS policy did not require training of contract employees.
                                  CORs were not properly appointed because management
                                  was not aware of the requirement to issue an official
                                  appointment letter outlining CORs' responsibilities. This
                                  also occurred because the purchasing manual does not
                                  reference management instructions AS-710-95-13, which
                                  outlines these procedures. Facilities personnel told us that
                                  the pre-construction meeting conducted with all concerned
                                  parties (e.g. construction manager, USPS project manager,
                                  and contractor) summarizes the overall requirements of the
                                  project to sufficiently cover the COR appointment.

3
  The three offices we reviewed did not require CORs to obtain training and certifications.

4
  Twenty-one CORs were not properly appointed.

5
  Nineteen CORs were not properly terminated, several of these were contract employees.




                                                        13
                                              Restricted Information
Responsibilities of Contracting                                                          CA-AR-99-003
 Officer's Representatives



                                  However, written records of roles, responsibilities, authority,
                                  and limitations need to be maintained in contract files to
                                  protect USPS interests.

                                  Contractors should be formally notified of COR termination
                                  to prevent possible disputes. Training would also enhance
                                  the overall administration of facilities contracts and increase
                                  USPS ability to receive the best value for construction
                                  contracts.

Recommendations                   The Vice President, Purchasing and Materials should

                                  9. Make a determination on whether COR training as
                                     defined by Management Instruction AS-710-95-13
                                     applies to Facilities project managers who are assigned
                                     as CORs.

                                  The Vice President, Purchasing and Materials, in
                                  conjunction with the Vice President, Facilities should require
                                  the Facilities Service Office managers to:

                                  10.	 Provide COR training to employees before they are
                                       assigned COR duties.

                                  11.	 Ensure contracting officers issue appointment letters,
                                       which clearly define CORs’ duties and responsibilities.

                                  12.	 Issue termination letter to CORs and to construction
                                       contractors when contract employees are no longer
                                       authorized to represent postal and when CORs are
                                       replaced prior to the completion of contracts.

Audit Note	                       The Columbia Facilities Service Office informed us at a
                                  July 28, 1999, meeting that they have already implemented
                                  procedures requiring contracting officers to issue
                                  appointment letters outlining COR responsibilities. This
                                  satisfies the intent of recommendation 11 at this office.

Management’s                      The Vice President, Purchasing and Materials and Vice
Comments                          President, Facilities agreed with the recommendations.

                                  The Vice President, Purchasing and Materials stated that
                                  Management Instruction AS-710-95-13 does apply to all
                                  CORs. Major Facilities Purchasing and Purchasing Policies


                                                      14
                                            Restricted Information
Responsibilities of Contracting                                                        CA-AR-99-003
 Officer's Representatives


                                  and Programs personnel will review the Management
                                  Instruction and existing training requirements for possible
                                  modification to address any unique design and construction
                                  COR training requirements. Further, they will require USPS
                                  instructors emphasize the proper way to administer the
                                  contracts addressed in this report.

                                  The Vice President, Facilities agreed to COR designation
                                  and termination letters.

                                  Corrective action is estimated to be completed prior to the
                                  end of FY 2000.

Evaluation of                     Management’s comments are responsive to our 

Management                        recommendations. 

Comments





                                                     15
                                           Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives



Separation of Duties	              According to the purchasing manual, “The contracting
                                   officer may appoint in writing one representative or more to
                                   perform any administrative function that does not involve a
                                   change in the scope of the work, specifications, cost or
                                   duration of contract performance.” The Construction
                                   Administration and Facilities Inspection Handbook, dated
                                   July 1998 stipulates, “The Contracting Officer, Contracting
                                   Officer’s Representative, Architect-Engineer, the
                                   Construction Manager and Contractor are the primary
                                   members of a project team.” The contracting officer has the
                                   authority to enter into, administer, and terminate contracts.
                                   Also, the contracting officer is the only member of the
                                   project team with the authority to obligate USPS. The
                                   contracting officer appoints a project manager who is a
                                   COR, with prime responsibilities to ensure construction work
                                   is completed in accordance with contract requirements. The
                                   construction handbook further stipulates, “Team members
                                   should be completely aware of their responsibilities and
                                   limitations of their authority.”

Dual Role	                         The Columbia Facilities Service Office Manager did not
                                   ensure that adequate separation of duties existed for 2 of 12
                                   files reviewed.6 Specifically, the same individual acted as
                                   contracting officer, COR and architect and engineer on the
                                   same project. For example, in two separate instances, the
                                   Whitehall, Ohio; and the Camden, New Jersey projects,
                                   each had one individual signing various progress payments
                                   as the contracting officer and COR. According to the
                                   Facilities Service Office manager, these conditions occurred
                                   because of staffing restrictions, which required postal
                                   employees to cover dual roles and responsibilities.
                                   According to the Vice President, Facilities, this condition
                                   existed because he is attempting to empower project
                                   managers by holding them accountable for projects from
                                   beginning to end, resulting in increased authority and
                                   responsibilities. Proper separation of duties between the
                                   contracting officer and COR allows for necessary checks
                                   and balances and ensures the integrity of the procurement
                                   process.




6
    Columbia Facilities Service Office managed 12 of 49 contracts we reviewed.



                                                         16
                                               Restricted Information
Responsibilities of Contracting                                                         CA-AR-99-003
 Officer's Representatives



Recommendation	                   The Vice President, Facilities in conjunction with the Vice
                                  President, Purchasing and Materials should:

                                  13.	 Ensure that adequate separation of duties exists
                                       between the contracting officer and COR on USPS
                                       Facilities contracts.

Management’s                      The Vice President, Purchasing and Materials agreed with
Comments                          the recommendation, stating that separation of duties is
                                  necessary to ensure the integrity of the purchasing process.

                                  The Vice President, Facilities stated that he believes the
                                  issue needs further discussion with Purchasing and
                                  Materials management. He advised that the issue will be
                                  studied and suggestions for improvement will be provided to
                                  appropriate management officials.

                                  Corrective action should be completed during FY 2000.

Evaluation of                     Management's comments are responsive to our 

Management’s                      recommendation.

Comments





                                                     17
                                           Restricted Information
Responsibilities of Contracting                                                                                       CA-AR-99-003
 Officer's Representatives




                                                   Summary of Facility Contracts Reviewed

        Contract             G    Stored      Final      Over      Contract No COR      No COR        No       No COR         Separation
        Number               M    Material Inspection   payment      Time    Training Appointment Replacement Termination      of Duties
                             P                                    Extensions             Letter    COR Letter    Letter
 Columbia FSO
  1 232098-97-B-0373                                                                X        X                    X                  X
  2 232098-98-B-0280                          X**                     X                      X                    X
  3 232098-97-B-0400                                                                X        X                                       X
  4 232098-98-B-0369                                                                X        X
  5 232098-96-B-0390                 X        X*                                    X        X        X           X
  6 232098-98-B-0432                                                                X        X
  7 232098-98-B-0443                                      X                         X        X
  8 232098-96-B-0234                          X**                                   X        X                    X
  9 232098-97-B-0423                          X**                                   X        X                    X
 10 232098-96-B-0163                          X*                                    X        X
 11 232098-98-B-0381                                                                X
 12 232098-98-B-0407                                                                X        X
 Capital Metro Facilities
 13 232092-99-B-0009
 14 232092-98-B-0111                         X *                                    X        X                    X
 15 232092-97-B-0095                         X **                                   X                             X
 16 232092-98-B-0129                                                                X
 17 232092-98-B-0134                                                                X
 18 232092-97-B-0066                 X       X **         X                         X        X                    X
 19 232092-98-B-0140                                                                X



                                                                              18                                            Appendix A
                                                                    Restricted Information
Responsibilities of Contracting                                                                                        CA-AR-99-003
 Officer's Representatives




                                                Summary of Facility Contracts Reviewed

       Contract             G     Stored      Final      Over      Contract No COR      No COR        No       No COR         Separation
       Number               M     Material Inspection   payment      Time    Training Appointment Replacement Termination      Of Duties
                            P                                     Extensions             Letter    COR Letter    Letter


 Memphis FSO
 20   512582-98-B-0008        X                                                   X
 21   512582-98-B-0007                                                            X
 22   512582-98-B-0002        X                                                   X
 23   512582-98-B-0006        X                                                   X
 24   512582-98-B-0005
 25   475450-96-B-0359                                                            X          X
 26   475450-98-B-0167                                                            X
 27   475450-97-B-0149                                                            X                                X
 28   475450-98-B-0171               X         X                     X            X          X                     X
 29   475450-99-B-0049                         X*                                 X          X                     X
 30   475450-98-B-0090                                                            X          X        X            X
 31   475450-97-B-0263                         X*                                 X          X        X            X
 32   475450-97-B-0244                         X*                                            X                     X
 33   475450-98-B-0056                                                                                X            X
 34   475450-98-B-0094               X                                            X                   X            X
 35   475450-97-B-0138                                                            X                                X
 36   475450-99-B-0027                                                            X
 37   475450-96-B-0349                                                            X                                X
 38   475450-98-B-0145                                                            X          X


                                                                              19                                            Appendix A
                                                                    Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives


 39   475450-97-B-0168                          X
 40   475450-98-B-0270                          X




                                            20                  Appendix A
                                  Restricted Information
Responsibilities of Contracting                                                                                                    CA-AR-99-003
 Officer's Representatives




                                                  Summary of Facility Contracts Reviewed
          Contract            G Stored         Final    Over           Contract No COR      No COR        No                No COR         Separation
          Number              M Material    Inspection payment           Time    Training Appointment Replacement          Termination      Of Duties
                              P                                       Extensions             Letter    COR Letter             Letter


Memphis FSO
 41    475450-97-B-0015                                                                 X
 42    512582-98-B-0001                                                                 X
       ***
 43    475450-97-B-0076                                                                 X
 44    475450-97-B-0046                                                                 X
 45    475450-98-B-0041
 46    475450-97-B-0243               X          X*                                     X          X                           X
 47    475450-98-B-0291               X                                                 X
 48    475450-97-B-0063                                                                 X


Headquarters
 49    512582-98-B-0003                                                                 X



         Totals                   3   6         12            2            2            43         21            5             19                 2
 *    Contract files that contain a punchlist without evidence of resolution.
 **   Contract files did not contain a punchlist or any evidence of final inspection.
 *** The Construction Manager performed a monthly audit of this contract and identified $71,000 of disallowable charges.




                                                                                    21                                                   Appendix A
                                                                          Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            22               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            23               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            24               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            25               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            26               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            27               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            28               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives




                                            29               Appendix B
                                  Restricted Information
Responsibilities of Contracting                            CA-AR-99-003
 Officer's Representatives



Major Contributors to
This Report:




                                            30
                                  Restricted Information
